—1

No.

In the

Supreme Court of tye Untteb States
SHIRLEY JN JOHNSON
Petitioner,
v.
NEW DESTINY CHRISTIAN CENTER CHURCH, INC.
a/k/a Paula White Ministries
a/k/a City of Destiny
PAULA MICHELLE MINISTRIES, INC.,
a/k/a Paula White Ministries
PAULA MICHELLE WHITE
a/k/a Paula Michelle Cain
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CERTIFICATE OF WORD COUNT
PETITION FOR A WRIT OF CERTIORARI
Shirley Jn Johnson, Pro se
P.O. Box 58818
Seattle, WA 98138
(253) 846-6805
Email: theremnantsjnj@yahoo.com

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h). I
certify that the Petition for a Writ of Certiorari
contains 3,052 words, excluding the parts of the
document that are exempted by Supreme Court Rule
33.1(d).
Under penalty of perjury, I declare that the
foregoing is true and correct.
Executed on August 14, 2019.
By:
Shirley Jn Johnson, Pro se
P.O. Box 088I8
Seattle, WA 98138
(253) 846-6805
theremnantsjnj@yahoo.com

